Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 10/29/2020 deponent caused to be served 3 copy(s) of the within
Brief of American Association of Jewish Lawyers and Jurists (AAJLJ) and Other Advocates for
Holocaust Restitution as Amici Curiae in Support of Respondents
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Jonathan M. Freiman
Wiggin & Dana LLP
Counsel for Petitioners
One Century Tower
265 Church Street
New Haven, CT 06510
(203) 498-4584

Nicholas M. O’Donnell Sullivan &
Worcester LLP
Counsel for Respondents:
One Post Office Square
Boston, MA 02109
(617) 338-2814

Jeffrey B, Wall
Acting Solicitor General:
U.S. Dept. of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217

Sworn to me this

Case Name: Federal Republic of Germany v. Alan Philipp

Wednesday, October 29, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No: 19-351
Index:

